No:
IN THE
SUPREME COURT OF THE UNITED STATES

MAURICIO ALVAREZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Mauricio Alvarez, pursuant to SUP CT. R. 39.1, respectfully
moves for leave to file the accompanying Petition for Writ of Certiorari in the Supreme
Court of the United States without payment of costs and to proceed in forma pauperis.
Petitioner was previously found financially unable to obtain counsel and the
Federal Public Defender of the Southern District of Florida was appointed to
represent Petitioner pursuant to 18 U.S.C. ' 3006A. Therefore, in reliance upon RULE
39.1 and ' 3006A(d)(6), Petitioner has not attached the affidavit which would
otherwise be required by 28 U.S.C. ' 1746.
MICHAEL CARUSO Federal
Public Defender
Miami, Florida
September 4, 2020

By:

s/Bonnie Phillips-Williams
Bonnie Phillips-Williams
Assistant Federal Public Defender
150 West Flagler Street, Suite 1500
Miami, Florida 33130-1555
(305) 536-6900

